<html>
<title> - [ERRATA] NOMINATION OF PHILLIP BOND TO BE UNDER SECRETARY FOR TECHNOLOGY AT THE DEPARTMENT OF COMMERCE AND JOHN MARBURGER TO BE DIRECTOR OF THE OFFICE OF SCIENCE AND TECHNOLOGY POLICY</title>
<body><pre>[Senate Hearing 107-1055]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1055
 
                                [ERRATA]
                NOMINATION OF PHILLIP BOND TO BE UNDER 
                    SECRETARY FOR TECHNOLOGY AT THE 
                    DEPARTMENT OF COMMERCE AND JOHN 
                MARBURGER TO BE DIRECTOR OF THE OFFICE 
                    OF SCIENCE AND TECHNOLOGY POLICY

=======================================================================

                                HEARING

                               before the

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 9, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
94-027                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ERRATA

                            S. Hrg. 107-1055

    1. Content section is being replaced with an updated 
version.
    2. Arden L. Bement Jr.'s biographical information was 
inadvertently printed on pages 14-28. The correct biographical 
information of John H. Marburger III has been added.



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 9, 2001..................................     1
Statement of Senator Allen.......................................     6
Statement of Senator Brownback...................................     3
Statement of Senator Nelson......................................     4
Statement of Senator Wyden.......................................     1

                               Witnesses

Boehlert, Hon. Sherwood, U.S. Representative from New York.......     7
Bond, Phillip J., Nominee to be Under Secretary for the 
  Technology Administration, U.S. Department of Commerce.........    28
    Prepared statement...........................................    29
    Biographical information.....................................    31
Grucci, Hon. Felix, Jr., U.S. Representative from New York.......     8
    Prepared statement...........................................     9
Marburger III, John H., Nominee to be Director of the Office of 
  Science and Technology Policy..................................    10
    Prepared statement...........................................    12
    Biographical information (In Errata)

                                Appendix

McCain, Hon. John, U.S. Senator from Arizona, prepared statement.    59
Murray, Hon. Patty, U.S. Senator from Washington State, prepared 
  statement......................................................    59
Response to written questions submitted by Hon. Bill Nelson to:
    Phillip Bond.................................................    60
    John H. Marburger III........................................    67
Response to written questions submitted by Hon. John McCain to:
    John H. Marburger III........................................    61
    Phillip Bond.................................................    68
Response to written questions submitted by Hon. Ernest F. 
  Hollings to John H. Marburger III..............................    68
Letter:..........................................................
    To Hon. Ron Wyden from Charles Schumer.......................    73
    To Hon. Ernest F. Hollings from the Science Coalition........    75
    From the Association of American Universities................    80
  
                      A. Biographical Information

    1. Name: John Harmen Marburger III (Jack).
    2. Position to which nominated: Director of the Office of 
Science and Technology Policy.
    3. Date of nomination: September 21, 2001.
    4. Address: (Information not released to the public).
    5. Date and place of birth: February 8, 1941, Staten 
Island, New York.
    6. Marital status: Married to the former Carol Preston 
Godfrey.
    7. Names and ages of children: John Harmen Marburger, 31; 
Alexander Godfrey Marburger, 28.
    8. Education: Bladensburg High School, 1955-1958, High 
School Diploma; Princeton University, 1958-1962, Bachelor of 
Arts in Physics; Stanford University, 1963-1967, Doctor of 
Philosophy in Applied Physics.
    9. Employment record: Goddard Space Flight Center, 
Maryland: Solid State Physicist (1962-1963); University of 
Southern California, Los Angeles, California: (1966-1980), 
Assistant Professor (1966-1969), Associate Professor (1969-
1975), Full Professor (1975-1980) in Departments of Physics and 
Electrical Engineering, Chairman of Physics Department (1972-
1975), Dean of College of Letters, Arts and Sciences (1976-
1980), Lawrence Livermore Laboratories Consultant (1972-1976); 
State University of New York at Stony Brook, Stony Brook, New 
York: (1980-present); Professor of Physics and Electrical 
Engineering (1980-present); President, 1980-1994; On leave 
(1997-present); Brookhaven National Laboratory, Upton, New 
York: (1994-present); Laboratory Director (1994-present).
    10. Government experience: 1980-1981: Chairman, Suffolk 
County Task Force on Priorities in Finance, appointed by County 
Executive Peter Cohalan; 1980-1981: Chairman, New York State 
Energy Office Review Commission, appointed by NYS Governor Hugh 
Carey; 1983: Chairman, New York State Fact Finding Panel on the 
Shoreham Nuclear Power Facility, appointed by NYS Governor 
Mario Cuomo; 1983-1993: Member, Advisory Committee to the New 
York State Senate Committee on Higher Education, appointed by 
Senator Kenneth LaValle; 1994: Co-Chairman, Consolidation Task 
Force, Board of Cooperative Educational Services.
    11. Business relationships (Boards and other significant 
service activities) Philanthropic: Stony Brook Foundation, 
Board of Directors ex officio (80/94). The not-for-profit 
corporation that manages philanthropic funds for the Stony 
Brook campus; Stony Brook Foundation Realty Corp., Board of 
Directors (85/94). A subsidiary of the Stony Brook Foundation 
established to develop a conference center/hotel on the Stony 
Brook campus; SEFA Campaign for Long Island, Chairman (89), 
(State Employees version of United Way); United Way of Long 
Island, Board of Trustees (90/93); United Way Campaign for Long 
Island, Chairman (91/92).
    Cultural: Coleman Chamber Music Association, Pasadena, 
California, Board of Directors (69-80), Sponsors chamber series 
at CalTech, other programs including schools performances, 
internationally known competition for young chamber players; 
The Museums at Stony Brook, Board of Directors (80/92, 94/97). 
Long Island's largest and only nationally accredited regional 
museum. Specializes in Early American genre artists, 
internationally renowned carriage collection, colonial 
historical collection.
    Higher Education: American Council on Education Advisory 
Committee on Self-Regulation, Member (82/85); Rockefeller 
Institute of Government, Board of Overseers (83/94), SUNY 
operated think-tank in Albany for State governmental studies; 
Association of Colleges and Universities of the State of New 
York, Treasurer (84-86), Vice President (86/88), President (88/
90), Organization of all public, private and accredited 
proprietary post-secondary educational institutions in New York 
State; Princeton University, Board of Trustees, Alumni Trustee 
(85/89); Jacob K. Javits Foundation, Board of Directors; 
Government University Industrial Roundtable on Modification of 
OMB Circular A-21 Regulations for Indirect Cost Recovery, 
Member (1986), Responded to effort by OMB to reduce indirect 
cost reimbursements to universities through rule changes.
    Research Organizations: New York State Education and 
Research Network, Inc. (NYSERNET) Board of Directors, (86/89), 
Created and operates major high-speed data network in New York 
State linking all major universities, industrial laboratories 
and Federal facilities; State University of New York Research 
Foundation, Board of Directors, (90/94), Manages externally 
sponsored research in SUNYsystem; Universities Research 
Association, Chairman: Council of Presidents (86); Board of 
Trustees: Chairman (88/94), Trustee (88/96); Consortium of more 
than 70 research universities that operates Fermi National 
Accelerator Laboratory in Illinois and the Super-conducting 
Super Collider in Texas, both under contract with U.S. Dept of 
Energy; Long Island Research Institute (LIRI), Board of 
Directors, (92/97), Chairman (94/97); Not for profit 
corporation formed by SUNY at Stony Brook, Brookhaven National 
Laboratories, and Cold Spring Harbor--Laboratory to foster 
technology transfer from these institutions to regional 
corporations.
    Business/Economic Development: Action Committee for Long 
Island, Inc., Board of Directors (80/83), Group of senior Long 
Island executives formed in late 1970's, merged with Long 
Island Association in 1983; Long Island Association, Inc., 
Board of Directors, (83/93, 98/01), Long Island's major 
business advocacy organization, similar to Chamber of Commerce 
which does not exist on Long Island; Long Island Forum for 
Technology, Inc., Board of Directors (80/94), Long Island's 
business advocacy group for high technology industry; Long 
Island High Technology Incubator Corporation, Board of 
Directors, Chairman (89/95), A subsidiary of the Stony Brook 
Foundation and the SUNY Research Foundation established to 
build and operate a high technology incubator facility on the 
Stony Brook campus. Gyrodyne Corporation, Board of Directors, 
(97/01), A former aerospace company, now converted to an 
industrial park/property management corporation, located 
adjacent to the Stony Brook campus.
    Government: Suffolk County Task Force on Priorities in 
Finance, Chairman (80/81) (Appointed by County Executive Peter 
Cohalan) Examined issues affecting Long Island economy in the 
1980's and advised County Executive on financial strategy; New 
York State Energy Office Review Commission, Chairman (80/81) 
(Appointed by Governor Hugh Carey) Conducted New York's first 
review under `sunset' legislation establishing this agency; 
Advisory Committee to the New York State Senate Committee on 
Higher Education, Member (83/93) (Appointed by State Senator 
Kenneth P. LaValle); New York State Fact Finding Panel on the 
Shoreham Nuclear Power Facility, Chairman, (83) (Appointed by 
Governor Mario M. Cuomo) Advised the Governor on State policy 
regarding this facility; Board of Cooperative Educational 
Services, Consolidation Task Force Co-Chairman (94), Committee 
formed to advise on consolidation of State operated special 
education districts in Suffolk County.
    12. Memberships: Fellow, American Association for the 
Advancement of. Science; Fellow, American Physical Society; 
Member, Board of Directors, Long Island Association.
    13. Political affiliations and activities: (a) List all 
offices with a political party which you have held or any 
public office for which you have been a candidate. None. (b) 
List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 
10 years. None. (c) Itemize all political contributions to any 
individual, campaign organization, political party, political 
action committee, or similar entity of $500 or more for the 
past 10 years. None.
    14. Honors and awards: Fellow, American Association for the 
Advancement of Science (2001); Fellow, American Physical 
Society (2001); Honorary Degree: Doctor of Humane Letters, 
Hofstra University (2000).
    15. Published writings: (1) J.H. Marburger, ``On the Formal 
Structure of the Helicity Representation,'' B.A. Thesis 
(unpublished, but available from Princeton University), (1962); 
(2) M.M. Sokoloski, J.H. Marburger, ``The Transport Properties 
of P-Type PbTe,'' NASA Goddard Space Flight Center Memorandum 
X633-63-233, (1963); (3) J.H. Marburger, ``Galvanomagnetic 
Effects in Polycrystalline Many Valley Semiconductors,'' NASA 
Technical Note TN D-1840, (1963); (4) J.H. Marburger, M. 
Sparks, ``Relaxation and Resonance,'' Chapter 14 in Magnetic 
Materials Digest (1965), ed. by R. White and K. Wickersheim; 
(5) J.H. Marburger, ``Conditions for the Existence of Closed 
Solutions by the Normal Ordering Method,'' Journ.Math.Physics 
7, 829 (1966); (6) J.H. Marburger, ``The Derivative Method in 
Many Body Theory,'' Ph.D. Thesis, Stanford University, W.W. 
Hansen Microwave Laboratory Report No. 1490, December (1966); 
(7) J.H. Marburger, ``Relation of Normal-Ordering Methods to 
Linked Diagrams,'' Phys.Rev.158, 1557 (1967); (8) W.H. 
Louisell, J.H. Marburger, ``Solutions of the Damped Oscillator 
Fokker-Planck Equation,'' IEEE Journ.Quant.Elect. QE-3, 348 
(1967); (9) J.H. Marburger, W.G. Wagner, ``Self-Focusing as a 
Pulse Sharpening Mechanism,'' IEEE Journ.Quant.Elect. QE-3, 415 
(1967); (10) J.H. Marburger, E.L. Dawes, ``Dynamical Formation 
of a Small-Scale Filament,'' Phys.Rev.Lett. 21, 556 (1968); 
(11) W.G. Wagner, H.A. Haus, J.H. Marburger, ``Large-Scale 
Self-Trapping of Optical Beams in the Paraxial Ray 
Approximation,'' Phys.Rev. 175, 256 (1968); (12) G.L. 
McAllister, J.H. Marburger, L.G. DeShazer, ``Observation of 
Pulse Shaping by the Self-Focusing Effect,'' Phys.Rev.Lett. 21, 
1648 (1968); (13) E.L. Dawes, J.H. Marburger, ``Computer 
Studies in Self-Focusing,'' Phys.Rev. 179, 862 (1969); (14) 
J.H. Marburger, L. Huff, J.D. Reichert, W.G. Wagner, 
``Stationary Self-Trapping of Optical Beams in Dense Media with 
Lorentz Local-Field Corrections,'' Phys.Rev. 184, 255 (1969); 
(15) J.H. Marburger, W.H. Louisell, ``Unification of Phase-
Space Descriptions of Quantum Markovian Systems,'' Phys.Rev. 
186, 174 (1969); (16) D.R. White, E.L. Dawes, J.H. Marburger, 
``Theory of Second-Harmonic Generation with High-Conversion 
Efficiency,'' IEEE Journ.Quant.Elect. QE-6, 793 (1970); (17) 
R.V. Johnson, J.H. Marburger, ``Relaxation Oscillations in 
Stimulated Raman and Brillouin Scattering,'' Phys.Rev. A4, 1175 
(1971); (18) W.G. Wagner, J.H. Marburger, ``On Laser Induced 
Turbulence,'' Opt. Commun. 3, 19 (1971); (19) J.H. Marburger, 
M. Flannery, ``IR Window Material Criteria: `Exact' Analyses of 
the Thermal Distortion Problem,'' in Proceedings of Conference 
on ``High Power IR Laser Window Materials.'' Air Force 
Cambridge Research Laboratories p. 11 (1971); (20). C.R. 
Giuliano, J.H. Marburger, ``Observations of Moving Self-Foci in 
Sapphire,'' Phys.Rev.Lett. 27, 905 (1971); (21) J.H. Marburger, 
``Theory of Self-Focusing for Fast Nonlinear Response,'' in 
Damage in Laser Materials, ed. by A.J. Glass, et al. 
Proceedings of 3rd. Symposium on Damage in Laser Materials, NBS 
Special Publ. 356, p. 51 (1971); (22) J.K. Guha, D.L. Judge, 
J.H. Marburger, ``OGO-5 Magnetic-Field Data Near the Earth's 
Bow Shock: A Correlation with Theory,'' Journ. Geophysical 
Research 77, 604 (1972); (23) C.R. Giuliano, J.H. Marburger, A. 
Yariv, ``Enhancement of Self-Focusing Threshold in Sapphire 
with Elliptical Beams,'' Appl.Phys.Lett. 21, 58 (1972); (24) 
J.H. Marburger, ``Self-Focusing with Elliptical Beams,'' in 
Laser Induced Damage in Optical Materials: 1972, ed. by A.J. 
Glass, et al. NBS Special Publ. 372, p. 84 (1972); (25) Review 
of book Lasers by B. Lengyel. Published in Physics Today, 
(1972); (26) J.H. Marburger, ``On Noncircularly Symmetric Self-
Trapped Light Beams,'' Opt. Commun. 7, 57 (1973); (27) J.H. 
Marburger, J.R. Jokipii, A.J. Glass, J. Trenholme, 
``Homogeneity Requirements for Minimizing Self-Focusing 
Damage,'' in Laser Induced Damage in Optical Materials: 1973,'' 
ed. by A.J. Glass, et al. NBS Special Publ. 387, p. 49 (1973); 
(28) J.R. Jokipii, J.H. Marburger, ``Homogeneity Requirements 
for Minimizing Self-Focusing Damage by Strong Electromagnetic 
Waves,'' Appl.Phys.Lett. 23, (1973); (29) B. Bendow, P.D. 
Gianino, M. Flannery, J.H. Marburger, ``Influence of Crystal 
Anisotropy on Composite Window Design for Reducing Thermal 
Distortion,'' in Proceedings of Fourth Laser Window Conference, 
Tucson, Ariz., (1974); (30) J.H. Marburger, ``Self-Focusing: 
Theory,'' in monograph series, ``Progress in Quantum 
Electronics,'' ed. by J. Sanders. S. Stenholme, 4, 35-110 
(1975); (31) F.S. Felber, J.H. Marburger, ``New Class of Exact 
Solutions of the Dirac Equation,'' Journ.Math.Physics 16, 2089 
(1975); (32) M. Flannery, J.H. Marburger, ``Diffraction Theory 
of Absorbing Windows,'' in Laser Induced Damage in Optical 
Materials, NBS Special Publ. (1975); (33) M. Flannery, J.H. 
Marburger, ``Theory of Stress Induced Birefringence in 
Polycrystalline IR Window Materials,'' in Proceedings of Fifth 
Laser Window Conference, Las Vegas, Nev. (1975); (34) J.H. 
Marburger, ``Relation between Optical Breakdown Field and 
Stokes Spectral Broadening,'' Optics Commun. 14, 92 (1975); 
(35) J.H. Marburger, R.F. Tooper, ``Nonlinear Optical Standing 
Waves in Overdense Plasmas,'' Phys.Rev.Lett. 35, 1001 (1975); 
(36) Review of book, Laser Spectroscopy, ed. by R. Brewer and 
A. Mooradian, Science, June 13, (1975); (37) J.H. Marburger, 
``Fiat Lux: Spotlight on Lasers,'' Facets 1, 7 (1975) This is a 
popular article in the University of Southern California 
quarterly magazine.); (38) M. Flannery, J.H. Marburger, 
``Theory of Elasto-Optic Coefficients in Polycrystalline 
Materials,'' Appl.Phys.Lett. 28, 600 (1976); (39) F.S. Felber, 
J.H. Marburger, ``Nonlinear Optical Reflection and Transmission 
in Overdense Plasmas,'' Phys.Rev.Lett. 36, 1176 (1976); (40) 
F.S. Felber, J.H. Marburger, ``Theory of Nonresonant 
Multistable Optical Devices,'' Appl.Phys.Lett. 28, 731 (1976); 
(41) A.T. Georges, P. Lambropoulos, J.H. Marburger, ``Two-
Photon-Resonant Third-Harmonic Generation in Cesium Vapor,'' 
Opt.Commun. 18, 509 (1976); (42) W. Meyer, K.W. Wong, J.H. 
Marburger, ``Roton Interactions in Superfluid Helium,'' 
Phys.Rev. B14, 1932 (1976); (43) A.T. Georges, P. Lambropoulos, 
J.H. Marburger, ``Theory of Third-Harmonic Generation in Metal 
Vapors under Two-Photon Resonance Conditions,'' Phys. Rev. A15, 
300 (1977); (44) R.E. Joiner, J.H. Marburger, W.H. Steier, 
``Elimination of Stress-Induced Birefringence Effects in 
Single-Crystal High-Power Laser Windows,'' Appl.Phys.Lett. 30, 
485 (1977); (45) J.H. Marburger, R. Shockley, ``Nonresonant 
Chirp Compensation with Counterpropagating Optical Pulses,'' 
Appl.Phys.Lett. 30, 441 (1977); (46) R.E. Joiner, J.H. 
Marburger. W.H. Steier, ``Critical Orientations Eliminating 
Stress-Induced Depolarization in Crystalline Windows and 
Rods,'' Proceedings of Ninth Annual Laser Induced Damage 
Symposium, Boulder, Colorado, October 4-6, (1977); (47) J.H. 
Marburger, F.S. Felber, ``Theory of a Lossless Nonlinear Fabry-
Perot Interferometer,'' Phys.Rev. A17, 335 (1978); (48) J.H. 
Marburger, ``Optical Pulse Integration and Chirp Reversal in 
Four-Wave Mixing,'' Appl.Phys.Lett. 32, 372 (1978); (49) E. 
Garmire, J.H. Marburger, S.D. Allen, ``Incoherent Mirrorless 
Bistable Optical Devices,'' Appl.Phys.Lett. 32, 320 (1978); 
(50) E. Garmire, S.D. Allen, J.H. Marburger, ``Multimode 
Integrated Optical Bistable Switch,'' Optics Letters 3, 69 
(1978); (51) E. Garmire, S.D. Allen, J.H. Marburger, ``Bistable 
Optical Devices for Integrated Optics and Fiber Optics 
Applications.'' Proceedings of SPIE, 139, 174, (1978); Optical 
Engineering, 18, 194 (1979); (52) J.H. Marburger, E. Garmire, 
``Bistable Optical Devices: An Overview,'' in Fiber Optics: 
Advances in Research and Development., ed. by B. Bendow and 
S.S. Mitra, Plenum Publishing Corp., p. 395-413, (1979); (53) 
J.H. Marburger, J.F. Lam, ``Nonlinear Theory of Degenerate 
Four-Wave Mixing,'' Appl.Phys.Lett. 34, 389 (1979); (54) S.D. 
Allen, E. Garmire, J.H. Marburger, H.G. Winful, ``Transient 
Response of Hybrid Bistable Optical Devices,'' Appl.Phys.Lett. 
34, 374 (1979); (55) J.H. Marburger, ``Thermal Distortion in 
Laser Windows.'' Review article scheduled to appear in Laser 
Damage volume edited by A.J. Glass and A. Gunther. (Not 
published to date); (56) J.H. Marburger, J.F. Lam, ``Effect of 
Nonlinear Index Changes on Degenerate Four-Wave Mixing,'' 
Appl.Phys.Lett. 35, 249 (1979); (57) H.G. Winful, J.H. 
Marburger, E. Garmire, ``Theory of Bistability in Nonlinear 
Distributed Feedback Structures,'' Appl.Phys.Lett. 35, 379 
(1979); (58) H.G. Winful, J.H. Marburger, ``Hysteresis and 
Optical Bistability in Degenerate Four-Wave Mixing,'' 
Appl.Phys.Lett. 36, 613 (1980); (59) J.H. Marburger, E.A. 
Power, ``Minimum-Uncertainty States of Systems with Many 
Degrees of Freedom,'' Foundations of Physics 10, 865 (1980); 
(60) J.H. Marburger, ``Improvements Upon the Simple Theory of 
Degenerate Four Wave Mixing,'' Chapter 4, p. 99-125, in Optical 
Phase Conjugation, Academic Press, ed. by R.A. Fisher (1983); 
(61) J.H. Marburger, ``Personal and Public Aspects of 
Physics,'' The Physics Teacher 33, (1995).
    16. Speeches: Provide the Committee with two copies of any 
formal speeches you have delivered during the last 5 years 
which you have copies of on topics relevant to the position for 
which you have been nominated. (1) Remarks at Hofstra New 
College Commencement Upon Receipt of Honorary Degree, May 22, 
2000; (2) Conference on Laboratory History and Sociology, June 
10, 1999.
    17. Selection: (a) I presume I was chosen for this 
nomination because of my extensive experience and visibility in 
the science, technical, and higher education communities. (b) I 
have performed scientific research myself, and administered 
research programs of a broad nature at every level, from 
investigator to university president and national laboratory 
director, for 35 years.

                   B. Future Employment Relationships

    1. Will you sever all connections with your present 
employers, business firms, business associations or business 
organizations if you are confirmed by the Senate? I will resign 
my positions as Director of Brookhaven National Laboratory, 
President of Brookhaven Science Associates, member of the Board 
of Directors for Gyrodyne, and member of the Board of Directors 
for the Long Island Association upon confirmation.
    I intend to continue to serve as a non-compensated member 
of the Board of Directors for the Jacob K. Javits Foundation, a 
non-profit educational organization and will continue my leave 
with the State University of New York at Stony Brook.
    2. Do you have any plans, commitments or agreements to 
pursue outside employment, with or without compensation, during 
your service with the government? If so, explain. I intend to 
continue to serve as a non-compensated member of the Board of 
Directors for the Jacob K. Javits Foundation, a non-profit 
educational organization.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation 
or practice with your previous employer, business firm, 
association or organization? I have no plans to return to 
Brookhaven National Laboratory.
    4. Has anybody made a commitment to employ your services in 
any capacity after you leave government service? I have been on 
an unpaid leave of absence with the State University of New 
York at Stony Brook since 1997 and plan to continue this leave 
arrangement.
    5. If confirmed, do you expect to serve out your full term 
or until the next Presidential election, whichever is 
applicable? Yes.

                   C. Potential Conflicts of Interest

    1. Describe all financial arrangements, deferred 
compensation agreements, and other continuing dealings with 
business associates, clients or customers. None.
    2. Indicate any investments, obligations, liabilities, or 
other relationships which could involve potential conflicts of 
interest in the position to which you have been nominated. My 
spouse has a personal account and is the income beneficiary of 
2 other accounts with U.S. Trust. Her holdings include shares 
in Amgen, Microsoft, Merck, Brocade Communications, JDS 
Uniphase, Openwave Systems, and AOL Time Warner. These holdings 
will be divested within 90 days of confirmation. Her holdings 
also include Medtronic, Cisco Systems, Pfizer, Pharmacia, 
Ericsson, Sun Microsystems, AT&T Corporation, AT&T Wireless, 
and Nextel Communications. I foresee no conflict of interest 
with the following entity but mention it in the interest of 
full disclosure: I serve as a non-compensated member of the 
Board of Directors of the Jacob F. Javits Foundation, a non-
profit educational organization.
    3. Describe any business relationship, dealing, or 
financial transaction which you have had during the last 10 
years, whether for yourself, on behalf of a client, or acting 
as an agent, that could in any way constitute or result in a 
possible conflict of interest in the position to which you have 
been nominated? State University of New York at Stony Brook, 
university professor (1980-present, on leave since 1997).
    4. Describe any activity during the past 10 years in which 
you have engaged for the purpose of directly or indirectly 
influencing the passage, defeat or modification of any 
legislation or affecting the administration and execution of 
law or public policy. Yes. During my tenure as Director of the 
Brookhaven National Laboratory (1997-2001), I contacted 
relevant House and Senate authorizers and appropriators 
regarding the importance of science programs at Brookhaven 
National Laboratory, and in support of the budget for the 
Department of Energy's Office of Science.
    5. Explain how you will resolve any potential conflict of 
interest, including any that may be disclosed by your responses 
to the above items. (Please provide a copy of any trust or 
other agreements.) My ethics agreement and SF-278 will fully 
disclose potential conflicts of interest and how I plan to deal 
with them.
    6. Do you agree to have written opinions provided to the 
Committee by the designated agency ethics officer of the agency 
to which you are nominated and by the Office of Government 
Ethics concerning potential conflicts of interest or any legal 
impediments to your serving in this position? Yes.

                            D. Legal Matters

    1. Have you ever been disciplined or cited for a breach of 
ethics for unprofessional conduct by, or been the subject of a 
compliant to any court, administrative agency, professional 
association, disciplinary committee, or other professional 
group? If so, provide details. No.
    2. Have you ever been investigated, arrested, charged or 
held by any Federal, State, or other law enforcement authority 
for violation of any Federal, State, county, or municipal law, 
regulation or ordinance, other than a minor traffic offense? If 
so, provide details. No.
    3. Have you or any business of which you are or were an 
officer ever been involved as a party in interest in an 
administrative agency proceeding or civil litigation? If so, 
provide details? Yes. Numerous legal cases arising from my 
administrative responsibilities for a large public university 
and medical center over a period of 14 years. I was named in 
such cases as the President of the university. Most of them 
were related to the health care function of the university 
hospital (medical malpractice suits), and to liability claims 
(accidents on the site, etc.)
    4. Have you ever been convicted (including pleas of guilty 
or nolo contendere) of any criminal violation other than a 
minor traffic offense? No.
    5. Please advise the Committee of any additional 
information, favorable or unfavorable, which you feel should be 
considered in connection with your nomination. I believe I have 
unique qualifications and solid experience to offer the Nation 
as the Director of the Office of Science and Technology Policy.
    As Director of the U.S. Department of Energy's Brookhaven 
National Laboratory and President of Brookhaven Science 
Associates, I have experience dealing with major Federal 
science facilities and believe I can bring an experienced 
perspective to the Office of Science and Technology Policy on 
the unique requirements of running this segment of the Federal 
S&T enterprise.
    Having served as a professor, Dean of a College, President 
of a University, and a University Trustee, I believe I am well 
qualified for the interplay between the Federal research and 
development enterprise, and the university community that 
carries out a large part of that research.
    I very much look forward to working with the Committee to 
ensure that America remains the world's leader in S&T.

                     E. Relationship With Committee

    1. Will you ensure that your department/agency complies 
with deadlines set by congressional committees for information? 
Yes.
    2. Will you ensure that your department/agency does 
whatever it can to protect congressional witnesses and whistle 
blowers from reprisal for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with 
requested witnesses, to include technical experts and career 
employees with firsthand knowledge of matters of interest to 
the committee? Yes.
    4. Please explain how you will review regulations issued by 
your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of the laws 
passed by Congress. The Office of Science and Technology Policy 
is not a regulatory agency.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives. OSTP's continuing 
mission is set out in the National Science and Technology 
Policy, Organization, and Priorities Act of 1976 (Public Law 
94-282). It calls for OSTP to: Serve as a source of scientific 
and technological analysis and judgment for the President with 
respect to major policies, plans, and programs of the Federal 
Government.
    The Act authorizes OSTP to:
    <bullet> Advise the President and others within the 
Executive Office of the President on the impacts of science and 
technology on domestic. and international affairs;
    <bullet> Lead an interagency effort to develop and 
implement sound science and technology policies and budgets;
    <bullet> Work with the private sector to ensure Federal 
investments in science and technology contribute to economic 
prosperity, environmental quality, and national security;
    <bullet> Build strong partnerships among Federal, State, 
and local governments, other countries, and the scientific 
community;
    <bullet> Evaluate the scale, quality, and effectiveness of 
the Federal effort in science and technology.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you 
may be reasonably requested to do so? Yes.

                  F. General Qualifications and Views

    1. How have your previous professional experience and 
education qualified you for the position for which you have 
been nominated. As Director of the U.S. Department of Energy's 
Brookhaven National Laboratory, and President of Brookhaven 
Science Associates, I have experience dealing with major 
Federal science facilities and believe I can bring an 
experienced perspective to the Office of Science and Technology 
Policy on the unique requirements of running this segment of 
the Federal S&T enterprise.
    Having served as a professor, Dean of a College, President 
of a University, and a University Trustee, I believe I am well 
qualified for the interplay between the Federal research and 
development enterprise, and the university community that 
carries out a large part of that research.
    2. Why do you wish to serve in the position for which you 
have been nominated? I hope to continue my service to the 
Nation as Director of the Office of Science and Technology 
Policy. I believe science, technology, and education are 
vitally important to the Nation's national security and 
economic and cultural well-being, and I wish to assist the 
Federal Government in creating and maintaining leadership in 
these areas.
    3. What goals have you established for your first 2 years 
in this position, if confirmed? (1) to ensure that America's 
science and technology assets are fully available in the 
Nation's struggle to eliminate terrorism as a threat to our 
national security. (2) to ensure that America's science and 
technology enterprise is sustained and nurtured; that education 
in science math, and engineering is strong and available to all 
Americans; and (3) that the Federal Government continues to 
play its vital partnership role in the Nation's science and 
technology effort.
    4. What skills do you believe you may be lacking which may 
be necessary to successfully carry out this position? What 
steps can be taken to obtain those skills? None identifiable.
    5. Who are the stakeholders in the work of this agency? 
University community, scientific associations, Federal 
scientists and engineers.
    6. What is the proper relationship between your position, 
if confirmed, and the stakeholders identified in question 
number ten. A steward of their combined interests.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) 
What do you believe are your responsibilities, if confirmed, to 
ensure that your agency has proper management and accounting 
controls? As Director of the Office of Science and Technology 
Policy, I will be responsible for meeting the requirements of 
the Federal Managers' Financial Integrity Act of 1982 
(Integrity Act) which requires every Executive Branch agency to 
report annually on the status of management controls to the 
President. The annual review of management controls allows OSTP 
the opportunity to reassess its mission and procedures to 
determine whether the controls in place are adequate to manage 
them. (b) What experience do you have in managing a large 
organization? As President of the State University of New York 
at Stony Brook, I was responsible for overseeing a University 
that encompasses 123 buildings on 1,100 acres, 18,000 students, 
1,600 faculty, and a budget of more than $600 million.
    As Director of Brookhaven National Laboratory, I have 
overseen 3,000 scientists, engineers, technicians and support 
staff, and over 4,000 guest researchers annually implementing 
DOE's strategic missions in carrying out basic and applied 
research in long-term programs at the frontiers of science. In 
this capacity I have directed a budget of $480 million, and 
oversaw the following major scientific facilities:
    <bullet> Relativistic Heavy Ion Collider (RHIC), the 
world's newest and biggest particle accelerator for nuclear 
physics.
    <bullet> National Synchrotron Light Source (NSLS), 
attracting more users annually than any other research machine 
in the world.
    <bullet> Alternating Gradient Synchrotron, home to Nobel 
Prize-winning research and many pivotal discoveries in high-
energy and nuclear physics.
    <bullet> Accelerator Test Facility, the nation's proving 
ground for new concepts in generating, accelerating and 
monitoring particle beams.
    <bullet> Tandem Van de Graaff Facility, ion sources for 
hardware testing and supplier of ions for RHIC.
    8. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable 
performance goals and to report to Congress on their success in 
achieving these goals. (a) Please discuss what you believe to 
be the benefits of identifying performance goals and reporting 
on your progress in achieving those goals. Research and 
development performance measures have been difficult to 
identify, and I fully understand the difficulties of applying 
performance measures to basic research programs. But such 
programs are not exempt from the Bush Administration's 
expectations of good management and high performance. We will 
work within the Administration to examine appropriate criteria 
for Federal investment in research as laid out in the recently 
released President's Management Agenda. (b) What steps should 
Congress consider taking when an agency fails to achieve its 
performance goals? Should these steps include the elimination, 
privatization, downsizing or consolidation of departments and/
or programs? I believe all options should be on the table, but 
any decision should be made on a case-by-case basis taking into 
consideration the importance of the goal to the agency's 
mission, how often the agency has failed to meet the goal, 
whether a plan is in place to meet the goal in a specified time 
period, etc. (c) What performance goals do you believe should 
be applicable to your personal performance, if confirmed? 
Provide sound, timely, clear, and accurate advice to the 
President and others within the Executive Office of the 
President on topics where science and technology can have an 
impact on domestic and international affairs, and in areas 
where Federal action has the potential to advance or impede 
scientific or technological progress.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? 
Have any employee complaints been brought against you? I 
believe in explicit and open communication with employees at 
every level within the organization. I have always been 
available to meet with employees at every level, under 
conditions that are clear to them and their supervisors. I 
establish clear roles, responsibilities, authorities, and 
accountabilities for all employees, and expect line managers to 
assume responsibility for every aspect of their work. During 
more than 25 years of administration, a number of employee 
complaints have been brought against me in my official 
capacity, mostly with respect to faculty tenure, or other 
employment related decisions. These have all been resolved 
satisfactorily. In general, I am regarded as a fair and 
accessible supervisor.
    10. Describe your working relationship, if any, with the 
Congress. Does your professional experience include working 
with committees of Congress? If yes, please describe. Yes. 
During my tenure as Director of the Brookhaven National 
Laboratory (1997-2001) I contacted relevant House and Senate 
authorizers and appropriators regarding the importance of 
science programs at Brookhaven National Laboratory, and in 
support of the budget for the Department of Energy's Office of 
Science.
    11. Please explain what you believe to be the proper 
relationship between yourself, if confirmed, and the Inspector 
General of your department/agency. The Executive Office of the 
President does not have an Inspector General.
    12. Please explain how you will work with this Committee 
and other stakeholders to ensure that regulations issued by 
your department/agency comply with the spirit of the laws 
passed by Congress. The Office of Science and Technology Policy 
is not a regulatory agency.
    13. In the areas under the department/agency's 
jurisdiction, what legislative action(s) should Congress 
consider as priorities? Please State your personal views.
    <bullet> Science and Technology in Legislation: Since they 
touch on so many of the Administration's priorities, my 
personal legislative priority is to ensure that science and 
technology are factored appropriately into all relevant 
legislation. Legislation pertaining to issues ranging from 
public health to education to national security potentially 
have significant science and technology implications. We need 
to ensure that such legislation is rooted strongly in the 
latest knowledge or promotes the further development of a 
balanced and robust science and technology portfolio.
    <bullet> Balance and Coordination in the R&D Portfolio: 
Science and technology research and development are complex 
activities that require balanced support of many diverse 
fields. Advances in medical diagnosis and therapy, for example, 
depend upon instrumentation and information technology 
developed through endeavors in the physical and engineering 
sciences. Effective execution of national agendas for health 
care, education, environmental protection, and national 
security requires coordination of programs and balanced funding 
among multiple agencies.
    <bullet> Math and Science Education: Education lies at the 
heart of this Administration's investment in America's future. 
How well our Nation prospers in the years ahead depends upon 
the competency of our children to perform in a knowledge-based 
society. Math and science education, in particular, require 
serious attention.
    14. Within your area of control, will you pledge to develop 
and implement a system that allocates discretionary spending 
based on national priorities determined in an open fashion on a 
set of established criteria? If not, please state why. If yes, 
please state what steps you intend to take and a timeframe for 
their implementation. I believe the most important system for 
investments in science and technology is the judicious use of 
competitive merit based/peer review.

</pre></body></html>
